<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 115-38]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 115-38
 
                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                            WATER AND POWER

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   on


                           S. 440         S. 1012
                           S. 677         S. 1029
                           S. 685         S. 1030
                           S. 930
 


                               __________

                             JUNE 14, 2017

                               __________
                               
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-979                 WASHINGTON : 2018             
        
        
        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada
                                 ------                                

                    Subcommittee on Water and Power

                          JEFF FLAKE, Chairman

JOHN BARRASSO                        ANGUS S. KING, JR.
JAMES E. RISCH                       RON WYDEN
MIKE LEE                             BERNARD SANDERS
BILL CASSIDY                         AL FRANKEN
ROB PORTMAN                          JOE MANCHIN III
LUTHER STRANGE                       TAMMY DUCKWORTH

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Lane Dickson, Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Melanie Stansbury, Democratic Professional Staff Member
        
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hoeven, Hon. John, a U.S. Senator from North Dakota..............     1
King, Jr., Hon. Angus S., Subcommittee Ranking Member and a U.S. 
  Senator from Maine.............................................     3

                               WITNESSES

Cameron, Scott, Acting Assistant Secretary--Water and Science, 
  U.S. Department of the Interior................................     5
Gabriel, Mark A., Administrator, Western Area Power 
  Administration.................................................    22
Sell, Hon. Jeff, Mayor, City of Harlowton, Montana, and Board 
  Member, Central Montana Regional Water Authority...............    27
Davis, Tom, General Manager, Yuma County Water Users' Association    45
Fisher, Tom, President, Patterson Lake Homeowners Association....    51
Hamman, Mike A., Chief Executive Officer, Middle Rio Grande 
  Conservancy District...........................................    56
Wynn, Christopher, Vice President, Northeast Operations, 
  Brookfield Renewable...........................................    63

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Rivers:
    Letter for the Record........................................    99
Audubon New Mexico:
    Letter for the Record........................................   106
Cameron, Scott:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    96
City of Dickinson (North Dakota):
    Letter for the Record........................................    80
Daines, Hon. Steve:
    Photo from Roundup, Montana..................................    85
Davis, Tom:
    Opening Statement............................................    45
    Written Testimony............................................    47
Dickinson Parks & Recreation:
    Letter for the Record........................................    79
Dry-Redwater Regional Water Authority:
    Statement for the Record.....................................   109
Federal Energy Regulatory Commission (FERC):
    Letter for the Record........................................    73
Fisher, Tom:.....................................................
    Opening Statement............................................    51
    Written Testimony............................................    54
Gabriel, Mark A.:
    Opening Statement............................................    22
    Written Testimony............................................    24
Hamman, Mike A.:
    Opening Statement............................................    56
    Written Testimony............................................    58
Hoeven, Hon. John:
    Opening Statement............................................     1
King, Jr., Hon. Angus S.:
    Opening Statement............................................     3
(The) Nature Conservancy:
    Letter for the Record........................................   126
North Dakota Game & Fish Department:
    Letter for the Record........................................    78
Ohkay Owingeh (New Mexico):
    Statement for the Record.....................................   129
Pueblo de Cochiti (New Mexico):
    Statement for the Record.....................................   133
Pueblo of San Felipe (New Mexico):
    Statement for the Record.....................................   138
Sell, Hon. Jeff:
    Opening Statement............................................    27
    Written Testimony............................................    29
Stark County (North Dakota) Board of Commissioners:
    Letter for the Record........................................    81
Theodore Roosevelt Conservation Partnership:
    Statement for the Record.....................................   141
Trout Unlimited:
    Letter for the Record........................................   145
Wynn, Christopher:
    Opening Statement............................................    63
    Written Testimony............................................    65

----------
The text for each of the bills which were addressed in this hearing can 
be found on the Committee's website at: https://www.energy.senate.gov/
public/index.cfm/2017/6/subcommittee-legislative-hearing-to-receive-
testimony-on-various-bills.


                          PENDING LEGISLATION

                              ----------                              


                        WEDNESDAY, JUNE 14, 2017

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:25 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. John Hoeven, 
presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven [presiding]. This hearing will come to 
order. This is a hearing of the Energy and Natural Resources 
Subcommittee on Water and Power.
    I am joined by Senator King, the Ranking Member, and also 
Senator Heinrich. Thank you both for being here.
    I am filling in, of course, for Senator Jeff Flake, who is 
the Chairman on this Subcommittee. For obvious reasons, he is 
unable to be here. He, his family and our other associates, 
certainly Representative Scalise and the staff are tremendous. 
The U.S. Capitol Police and all law enforcement are in our 
thoughts and prayers during this very sobering day here on 
Capitol Hill.
    We thank all of you for being with us. There is a vote 
going on, which is not unusual around here. There is always a 
lot, it seems, going on at the same time. We will have people 
coming and going based on that vote, but we will go ahead and 
proceed with the hearing. We know, in some cases, that you had 
to come back due to schedule changes in earlier hearings. We 
apologize for the fact that you had to come back, but we 
appreciate it very much and thank you again for being here.
    The purpose of today's hearing is to receive testimony on 
seven bills pending before the Subcommittee, and I am Chairing, 
as I said, in place of Senator Flake.
    The jurisdiction of the Subcommittee ranges from the Bureau 
of Reclamation, agencies that market federal hydropower, and 
our Ranking Member just informed me that he was formerly in the 
federal hydropower business so I would think he has a very good 
perspective on it. Of course, the Subcommittee's jurisdiction 
also covers the Bureau of Reclamation projects throughout the 
Great Plains, dams in the Pacific Northwest and hydropower 
facilities in the Northeast.
    After the unfortunate cancellation of this hearing last 
month, today we will hear about a number of bills that cover 
the full range of this Subcommittee's jurisdiction including S. 
440, which is my legislation related to land surrounding 
Patterson Lake. I am also very pleased to have the support of 
my colleague from North Dakota, Senator Heitkamp, on that bill 
as co-sponsor.
    S. 440 is a result of a lot of work by landowners, excuse 
me, we hope soon-to-be landowners, homeowners around Patterson 
Lake who have gotten together and worked in a cooperative way 
to come up with, what I think, is a very good, common sense 
solution. Our role is to help support our citizens around the 
country, and this is a great example of where we have that 
opportunity to empower them because they have been able to work 
together and come to a very good solution. I have had the 
privilege to attend some of their meetings, listen and really 
understand what their concept is and provide some feedback, but 
again, commend them on their ability to come together with a 
good solution.
    This bill is a result of various stakeholders looking at 
all aspects of the land conveyance and coming to a workable 
solution, recognizing that it has to work not only for them but 
for the City of Dickinson, for Stark County where they live, 
the State of North Dakota and for the Federal Government who, 
of course, represents all of the other citizens of this great 
nation of more than 300 million people.
    In addition to the primary water supply purpose of this 
project based on its original construction, the Dickinson 
Reservoir, which is Lake Patterson, has a public recreation 
purpose and lands on the south side of the reservoir were 
leased to individuals for part-time or full-time cabin 
construction. The City of Dickinson has transitioned to 
obtaining their drinking water from the Southwest Water 
Authority, but the recreation and residential uses of the 
contiguous lands remain a viable benefit to the citizens of 
Dickinson and the surrounding area.
    Since 1953, the Dickinson Parks and Recreation has worked 
cooperatively with the Bureau of Reclamation to manage the 
Patterson Lake Recreational Area. Over several decades they 
have worked hard to increase and enhance recreational 
opportunities as well as support public accessibility.
    I have been there and I have seen the area. It really is a 
beautiful area and an example of where the Federal Government 
coming in and actually building a dam has really created not 
only a beautiful lake, but just a beautiful surrounding area 
that is used for many purposes--not only residential but 
recreational and really an asset for the community and our 
state.
    We will also hear testimony on a bipartisan bill, the 
Western Area Power Administration (WAPA) Transparency Act. 
There have been financial challenges at WAPA and they have made 
some progress with transparency but more needs to be done. The 
bill directs WAPA to continue those efforts that their 
customers deserve.
    Also on the agenda today is the reintroduced Water Supply 
Permitting Coordination Act. Although we were fortunate to have 
healthy snowpack this year, the prolonged drought we have just 
experienced should illustrate the need for water storage and 
supply infrastructure. This bill sets out a streamlined process 
led by the Bureau of Reclamation to aid the construction on 
water supply projects.
    We have two hydropower bills from Senator King that shed 
light on additional opportunities to produce clean, renewable 
hydropower and to speed up the permitting process for 
hydropower projects. The New Mexico delegation introduced a 
drought bill that we will also consider.
    From the challenges of building new water supply projects 
across the West to the hydropower issues faced by customers 
from the West to Northern Maine, these bills provide a good 
example of the range of issues that this Subcommittee deals 
with.
    I would now turn to Senator King for any remarks that he 
might like to make.

             STATEMENT OF HON. ANGUS S. KING, JR., 
                    U.S. SENATOR FROM MAINE

    Senator King. Thank you, Mr. Chairman. I am delighted to 
see all of you, and I thank you and appreciate your coming back 
so that we can hold this important hearing.
    As the Chairman stated, the breadth of issues that this 
Committee deals with is quite broad, and it is clear from the 
range of witnesses here who have come from across the country 
to provide information that there are unique needs in each 
region of the country, but some common areas of agreement.
    I especially want to thank Mr. Wynn for being here. 
Brookfield has a very large presence in Maine, where hydropower 
is nearly 25 percent of our total energy production. I 
appreciate Brookfield's perspective on the matters we are going 
to cover today as we talk about important hydropower issues, 
both in the Northeast and across the country.
    I do not want to start the Subcommittee hearing without 
acknowledging the leadership of Senator Flake and the idea that 
we intend to operate in a totally bipartisan--I should say 
since I am neither Democrat nor Republican--non-partisan way. I 
look forward to working with Chairman Flake. We are already the 
co-sponsors of each other's bills before this Committee today.
    Hydropower, I think, is often forgotten as one of America's 
most important energy sources and most important renewable 
energy sources. Conventional hydropower, as we all know it, 
accounts for six or seven percent, which is significant, of our 
total energy production in the country, and it is something 
that is important, both in terms of critical renewable baseload 
power, but also in terms of the fact that it is renewable and 
sustainable.
    Hydropower can be expensive, however, particularly in the 
capital area. I think that is one of the things we are going to 
talk about today--that hydropower, like wind power, is capital 
intensive but operationally cheap. Once the capital is 
advertised and supported then the power is there into the 
indefinite future. Part of that capital cost, however, is 
licensing and permitting costs, and that has to be recognized 
as a significant part of what is, ultimately, the price of the 
power. Therefore, what we have to try to manage is to maximize 
environmental protection and environmental benefit and minimize 
costs and time involved so that we can achieve important 
renewable energy benefits from hydropower at a cost that 
customers can afford and also in a time that makes sense for 
getting these important resources on the grid.
    As some of you may know, I spent some of my first 
professional years in the hydropower business in New England. 
In 1983, I worked with a small company that developed 
hydropower around New England. Later we did biomass and later 
on in my career I've done wind power and also conservation. So 
I may be one of the few people around here who has actually 
applied to the Federal Energy Regulatory Commission (FERC) for 
a permit--and actually, I think it was for an exemption. But I 
do understand the process and look forward to working with all 
of you and with my colleagues in order to make that process as 
efficient as possible while emphasizing the importance of our 
regulatory process in terms of environmental protection.
    I have to pause at this moment and tell a story that I 
think some of you may appreciate. I was once working on the 
licensing of a hydro project somewhere in the Northeast--and I 
won't identify the state--but we were sitting around the table 
discussing this project and the head of the environmental 
agency was talking about his concerns about the project. It 
suddenly dawned on all of us sitting around the table, both 
staff and people working on the project, that this fellow 
thought that once water went into a turbine it never came out.
    [Laughter.]
    That we were, in fact, using up the river. It was one of 
those situations where nobody knows how we are going to break 
this to him, but we did. That is an absolutely true story.
    Senator Hoeven. Like a black hole.
    Senator King. Yes, that is right.
    So, I really appreciate, again, your being here today. I 
look forward to your testimony and am delighted to be working 
on, what I consider, one of our most important energy issues.
    With that, Mr. Chairman, I will turn it back to you.
    Senator Hoeven. Senator Heinrich, any opening statement you 
might have?
    Senator Heinrich. I think the problem was that Senator King 
used steam turbine.
    [Laughter.]
    No. I want to welcome Mr. Hamman from New Mexico who has 
joined us today. He's got a great perspective, having been on 
multiple sides of some of these issues and now represents the 
conservancy district but previously was at the Bureau and knows 
the level of cooperation and coordination it takes to solve 
some of these issues.
    I am looking forward to hearing their testimony.
    Senator Hoeven. Alright, then we will begin the panel with 
Mr. Scott Cameron, the Acting Assistant Secretary for Water and 
Science in the Department of the Interior. We appreciate, Mr. 
Cameron, the work that you have been doing in the water and 
science function of the Department, especially on the Colorado 
River, and look forward to your confirmation. Go ahead and 
proceed.

 STATEMENT OF SCOTT CAMERON, ACTING ASSISTANT SECRETARY--WATER 
          AND SCIENCE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Cameron. Mr. Chairman, Senator King, Senator Heinrich, 
I want to thank you, first of all, for the opportunity to 
testify before you today on four of the bills pending before 
the Subcommittee. I am Scott Cameron, Acting Assistant 
Secretary for Water and Science at the Department of the 
Interior.
    In the interest of time, I will summarize the Department's 
views on these four bills and submit my full testimony on each 
bill for the record.
    S. 440, as the Chairman knows, would provide a path for 
permitted cabin owners in the Dickinson Parks and Recreation 
Department to take ownership of certain federal lands in the 
State of North Dakota. The legislation will allow for flexible 
management of the lands to meet local needs and alleviate the 
administrative cost of oversight and management of the land.
    I would like to reemphasize the Secretary's staunch 
commitment against the sale or wide-scale transfer of federal 
lands. As he stated at this Committee throughout his 
confirmation process, the Secretary firmly holds that our 
treasured public lands are to be maintained and preserved for 
the benefit and enjoyment of the people. The Department is 
quite willing to work with Congress to ensure proposals like S. 
440 preserve access and recreation for future generations. My 
written testimony recommends a few changes to S. 440 to provide 
additional clarity and protections.
    S. 677 directs the Secretary of the Interior to coordinate 
federal and state permitting processes related to the 
construction of new surface water storage projects on lands 
managed by the Interior and the U.S. Department of Agriculture.
    We welcome efforts to streamline and expedite the approval 
of new surface water storage projects. The President's 2018 
budget request includes an infrastructure initiative aiming to 
explore long-term reforms on how infrastructure projects are 
regulated, funded, delivered and maintained. In particular, the 
initiative acknowledges the current environmental review and 
permitting processes' lack of cohesiveness, often making 
infrastructure projects more costly, unpredictable and time-
consuming, all while adding little environmental protection. 
This initiative dovetails into the goals set forth in S. 677. 
The Department supports the goals of S. 677 and recommends a 
few amendments which are detailed in my written statement.
    S. 685 would authorize construction of the Dry-Redwater 
Regional Water Authority System and the Musselshell-Judith 
Rural Water System in the states of Montana and North Dakota. 
The Department supports the goals on encouraging a vibrant, 
rural economy and ensuring safe, reliable sources of drinking 
water. Given the past history and future prospects of funding 
for the rural water program, we are cautious not to raise 
unreasonable expectations for future federal funding should 
this bill become law. The Department has concerns about adding 
to the backlog of Reclamation's already-authorized rural water 
projects that are in queue for federal construction funding 
already. While the Department acknowledges the critical 
functions rural water projects offer to communities across the 
West, we have concerns with S. 685 as written and we would like 
to work with the Committee to address those concerns.
    Last, S. 1012 aims to enhance coordination from water 
acquisition, encourage water conservation, authorize and 
provide for studies and support efforts to provide an annual 
spring peak flow for the Middle Rio Grande in New Mexico. 
Congress has encouraged Reclamation to pursue efforts to 
facilitate agricultural water leasing. In response, Reclamation 
has started a pilot project for leasing and is planning a grant 
opportunity to build and begin testing the framework for a 
leasing program in collaboration with the Middle Rio Grande 
Conservancy District. S. 1012 would provide Reclamation and the 
District with increased flexibility to implement and 
effectively manage such a program. S. 1012 would authorize a 
National Academy of Sciences study of water and reservoir 
management and operation. The study would likely provide water 
managers along the Rio Grande in New Mexico with useful 
information; however, there may be ways this study can build on 
the work of other prior studies. The Department supports many 
elements of S. 1012 but has, again, a few concerns which are 
detailed in my written statement. We would like to work with 
the sponsors and the Committee to address those particular 
concerns.
    Thank you again, Mr. Chairman and Ranking Member King, for 
the opportunity to present these views. I would be happy to 
answer questions at the appropriate time.
    [The prepared statements of Mr. Cameron follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Hoeven. Thank you, Secretary Cameron.
    Next we will have Mr. Mark Gabriel, Administrator and CEO 
of the Western Area Power Administration (WAPA).

STATEMENT OF MARK A. GABRIEL, ADMINISTRATOR, WESTERN AREA POWER 
                         ADMINISTRATION

    Mr. Gabriel. Thank you, Mr. Chairman and members of the 
Subcommittee. I am Mark Gabriel, Administrator of the Western 
Area Power Administration, one of four power marketing 
administrations within the Department of Energy, whose role is 
to market and transmit wholesale electricity from 56 hydropower 
dams.
    For the past 40 years WAPA has supplied at-cost electricity 
to hundreds of municipalities, rural electric cooperatives, 
public utilities, irrigation districts, federal and state 
agencies, military installations and Native American tribes. 
Forty million people benefit from the federal hydropower and 
transmission services that WAPA provides. They depend on us to 
provide reliable service, not only today, but also into the 
future.
    Low-cost federal hydropower was a cornerstone in the 
development of the West and remains a key element of the 
economic life in maintaining strong communities. WAPA serves a 
diverse customer base across a 15-state territory the size of 
Paris to Moscow and Athens to Oslo. We are a complex 
organization with 10 rate-setting systems and more than 17,000 
miles of transmission line. We do this offering the lowest-cost 
rates consistent with sound business principles.
    WAPA is committed to transparency, and so am I. In the four 
years that I have served as head of the organization, we have 
proactively taken multiple steps to evolve and increase our 
transparency efforts and we will continue to do so.
    I believe what has prompted this proposed legislation is 
that some of our customers want access to more information that 
informs our planning and operations at our Headquarters office 
and an understanding of how it relates to our annual budget 
and, ultimately, their rates. This is a reasonable request, and 
we are working toward that end with many of our customers 
through multiple processes.
    I understand the customer concern for rates. Our rates, 
however, are extremely competitive. For example, our customers 
in Arizona benefit from rates that are significantly less than 
comparable wholesale rates. In our Upper Great Plains Region, 
customers will be seeing rate reductions in 2018 for the second 
year in a row.
    Now back to our growth. Our Headquarters staff and budget 
has, in fact, grown over the past decade. It is bringing value 
to our organization and customers and keeps us well-positioned 
amid changing times in our dynamic industry. It is aligned with 
our commitment to business excellence and sound business 
practices and enables us to continue delivering on our mission 
and maximize the value of hydropower for all of our customers.
    Our growth in headquarters staff has allowed us to build a 
Continuous Process Improvement Program that has resulted in $34 
million in cost avoidance and cost savings, a 217 percent 
return on the program's investment.
    Some of our ``growth,'' however, is not growth at all, but 
an organizational realignment and shifting of the budget that 
has resulted in increased efficiencies. These changes allow us 
to improve our ability to adhere to mandatory compliance 
standards and laws, such as Critical Infrastructure Protection 
and the Federal Information Technology Acquisition Reform Act. 
Some of our customers may not agree with these changes that we 
have made. I believe it is, in part, because we did not do a 
good enough job communicating early and sufficiently.
    We have already begun to increase transparency, 
specifically regarding our Headquarters budget. I am very proud 
of these efforts that we began three years ago to address 
transparency and communication gaps. Customers have stated they 
are already seeing improvements in how we engage with them on 
budget issues. We are working well with the Mid-West Electric 
Consumers Association, our California customer base and the 
Colorado River Energy Distributors Association. Thanks to our 
customers in Arizona, we are now partners in a Customer 
Technical Committee to address a number of improvement 
opportunities including financial transparency.
    We've developed a more consistent 10-Year Planning process 
across our regional offices, have been hosting annual all-
customer meetings since 2014, and last year opened up our 
Headquarters 10-Year Planning process to customers with more 
engagement in the coming year. Additionally, we host or attend 
more than 300 meetings with customers annually to share 
information and answer questions.
    Just over a year ago we launched ``The Source,'' a space on 
our website dedicated to sharing operational and auditable 
financial statements. Much of that information was already 
available on our website, but we brought it into one convenient 
location and put it front and center. It includes annual 
reports, presentations, a searchable index of power system 
data, rates information, key topics and customer news.
    We have produced and made available reams of data. We have 
memorandums of understanding with many customer groups, 
agreeing to share and discuss financial information. We are 
more transparent than any organization for which I have worked 
and we are exploring ways to further expand our engagement. Our 
transparency efforts are consistent with the spirit of the 
proposed transparency legislation. We are committed to sharing 
information openly and honestly and providing a mechanism for 
feedback.
    As a public servant charged with leading a federal 
organization, a very large utility, I am ultimately responsible 
for the safe and reliable operation of our large, 
interconnected generation and transmission system. I take my 
responsibility in earnest.
    Thank you for the opportunity to speak with you today. I 
look forward to answering your questions.
    [The prepared statement of Mr. Gabriel follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Hoeven. Thank you, Administrator.
    Next we will hear from the Honorable Jeff Sell, Mayor of 
Harlowton, Montana.

STATEMENT OF HON. JEFF SELL, MAYOR, CITY OF HARLOWTON, MONTANA, 
   AND BOARD MEMBER, CENTRAL MONTANA REGIONAL WATER AUTHORITY

    Mr. Sell. Mr. Chairman, Ranking Member King and members of 
the Subcommittee on Water and Power, my name is Jeff Sell and I 
serve as a Board Member of the Central Montana Regional Water 
Authority (CMRWA) which has been working on the Musselshell-
Judith Rural Water System project in Montana for over 12 years. 
I also serve as the Mayor of the City of Harlowton, Montana.
    On behalf of the CMRWA and the City of Harlowton, I wish to 
thank the Chairman and the Subcommittee for the opportunity to 
testify on behalf of Senate bill 685, the Clean Water for Rural 
Communities Act. This bill will authorize two regional drinking 
water projects in different areas of our vast State of Montana.
    We want to thank Senator Steve Daines and his dedicated 
staff, who have helped us craft this important legislation. We 
wish to thank bill sponsor Senator Jon Tester and his staff, 
who have provided valuable guidance to our organization over 
the years during the planning of this project. We also want to 
thank Secretary of the Interior, Ryan Zinke, as he was the 
author of this same legislation in the 114th Congress. It is 
our hope that, under his leadership, the Bureau of Reclamation 
will continue to work with us to actually build the 
Musselshell-Judith Rural Water System.
    We turn to you, the United States Congress, to pass Senate 
bill 685 into law and allow us to construct this regional water 
system. The Bureau of Reclamation has deemed our project 
feasible, yet Reclamation told us last year it will not 
recommend the water system for authorization. After 12 years of 
working with Reclamation and finally securing approval of our 
feasibility study from Reclamation, we feel the Federal 
Government's commitment to bringing safe drinking water to our 
community will only be continued if Congress authorizes this 
water system.
    Let me tell you about our project need. The CMRWA is a 
coalition of eight incorporated communities, several 
unincorporated communities and the rural areas within six 
counties in central Montana with a long legacy of poor water 
quality and limited quantity.
    The water system will provide communities and rural 
residents in the region with a reliable supply of high-quality 
drinking water from the Madison aquifer groundwater. The 
groundwater meets all primary and secondary federal drinking 
water standards. Delivering this drinking water will improve 
the health and quality of life of Americans in a large area of 
Montana.
    The CMRWA has already spent nearly $3 million of state, 
local and federal funding on the project to date for test well 
construction, engineering, planning and administration of the 
project. With this investment the CMRWA has completed several 
major milestones including completing its 2,200-foot deep test 
well at Ubet which demonstrated that the adequate quantity of 
high-quality water is available at the preferred well site; 
obtained all the water rights needed for the project; 
demonstrated to the Federal Government that the project has a 
benefit-to-cost ratio of 1.28 to 1; demonstrated that the 
project complies with the National Environmental Policy Act, 
Endangered Species Act and the National Historic Preservation 
Act; and completed and received Reclamation approval for the 
project feasibility report.
    Further, the project area has one of the lowest median 
household incomes in Montana. The low income of this region 
combined with the lack of dense population centers makes it 
very difficult for rural areas to afford drinking water 
infrastructure compared to urban areas.
    We have all heard of the drinking water problem faced in 
the big City of Flint, Michigan, but small towns, ranching 
communities in the West, face similar water problems. Federal 
authorization of this project is absolutely necessary, not only 
to provide safe drinking water but to make the project 
affordable for our residents in Montana.
    In conclusion, the residents, institutions and businesses 
of this region face significant deficiencies with the existing 
water supplies. These deficiencies impact the health and safety 
of residents across this region of Montana. The deficiencies 
with the water supplies also have a significant economic impact 
on these communities that have median household incomes among 
the lowest in Montana.
    We have worked for 12 years with the Bureau of Reclamation 
to become a federally-authorized project; however, after being 
deemed feasible by Reclamation, we were told we must secure 
authorization from Congress to continue.
    We began work on this project system, excuse me, we began 
work on this water system before the Rural Water Supply Act was 
passed in 2006 and implemented in 2008, but we adhered to the 
stipulations outlined in the Act and completed the process. 
Reclamation reports that our project is only one of two 
projects that have successfully completed the feasibility 
process and that is out of 20 applicants that started the 
process under the Act; therefore, we need Congress to authorize 
our project to ensure Reclamation continues to work with us 
through construction.
    Thank you for allowing me to testify on behalf of the CMRWA 
and the City of Harlowton for this critical legislation for our 
region. An adequate quantity of safe drinking water is a basic 
human need that most Americans take for granted. Please support 
our efforts to secure a system that will deliver that same 
promise to our citizens.
    Thank you.
    [The prepared statement of Mr. Sell follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Senator Hoeven. Thank you, Mayor Sell.
    Now we will turn to Mr. Tom Davis, the General Manager of 
the Yuma County Water Users' Association in Southwestern 
Arizona.
    Mr. Davis.

            STATEMENT OF TOM DAVIS, GENERAL MANAGER,
              YUMA COUNTY WATER USERS' ASSOCIATION

    Mr. Davis. Thank you, Mr. Chairman, Ranking Member King and 
other members of the Subcommittee. My name is Tom Davis, and 
I'm the Manager of the Yuma County Water Users' Association. 
We're the oldest and the last diverter of Colorado River water 
in the State of Arizona, and we're also a customer of Western 
Area Power Administration.
    I'm here to testify on both Senate bill 930 and Senate bill 
677--930 being the Western Area Power Administration 
Transparency Act, and Senate bill 677, the Water Supply 
Permitting Coordination Act.
    I am in support of Senate bill 930 that requires Western to 
establish within 120 days a public accessible database that 
will provide its customers transparency into the planning, 
budgeting, rate setting, purchasing, staffing, contracting 
process at Western.
    And I want--Mr. Gabriel did a fine job of laying out 
Western's core mission, and I just want to emphasize part of 
that is the fact that Western is required by law to transmit, 
market and transmit power to its customers at the lowest 
possible rate with sound business practices. And now some of 
the customers have witnessed six percent increases in their 
power rates each year for the last five years. We feel that a 
lot of those rate increases aren't due to capital project 
increases but, in fact, is due to probably the operation and 
maintenance, staffing needs in some of the offices.
    The Yuma County Water Users' Association is a priority use 
power customer of Western. We're not a large customer of 
Western and we're not a large entity, but we're 100 percent 
dependent on Western Power. A lot of our uses of that power is 
to pump water into Mexico, into Sonora, Mexico, as part of the 
1944 Treaty between the U.S. and Mexico to supply Mexico its 
proportional share of the Colorado River water.
    This transparency is good for the customers, but the thing 
the customers really want is more input into where these costs 
are going and input into selection of capital improvement 
projects, input into looking at the staffing needs that Western 
has.
    One of the things we've done in the Southwestern office of 
WAPA, out of Phoenix, the customers have formed, as Mr. Gabriel 
mentioned, a Customer Technical Committee. We're working real 
close over Western with the new staff there in Phoenix to 
actually have some valuable input into analyzing the staffing 
needs, the capital improvement projects and both the capital 
and the O&M budgets of Western and that's working out really 
well. We're just beginning that process. I think that has a 
good future. It lets the customers have an understanding of the 
need of Western. And so, I think that's going to be a good 
process.
    One thing I want to mention. This Administration's 2018 
budget proposes the sale of assets of Western and other PMAs to 
private interest. If you recall, that's come up in previous 
Administrations since the 1980s. Congress has always rejected 
that because it's not favorable to the customers. And I 
recommend the same position taken by Congress this time. It's 
not in the customer's interest for these assets to be 
privatized. We bought and paid for those already once in the 
past.
    In regards to Senate bill 677, that's basically the Water 
Supply Permitting Coordination Act--it sets up the Bureau of 
Reclamation as a one-stop shop for new water supply diversion 
projects that's going to be coming up in the West. And the 
Bureau then is in charge of wrangling all the other federal 
agencies that's going to be involved in the NEPA process and 
the permitting process, to give them a timeline to respond to 
their permitting needs. It favors those advocates that are 
needing to get these projects constructed because it sets a 
time limit and it doesn't run us around the horn of having to 
deal with a half a dozen different federal agencies. The Bureau 
is in charge of getting that done, so we really support that 
bill. And also, the main thing that bill does, it allows the 
states to be a player in that process. So it allows the Western 
states to pay into the cost of that process, of the permitting 
process, and also to provide important data and science into 
the process.
    So I'm in favor of both of these bills, and I think there's 
a lot of citizen support in the West, particularly for 
construction of new water and diversion projects. And I hope 
this process can be streamlined to be able to allow those 
projects to be constructed in the next 20 years or so.
    Appreciate you giving me an opportunity to give you my 
thoughts, and I'll be happy to answer any questions.
    [The prepared statement of Mr. Davis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Hoeven. Thank you, Mr. Davis.
    Now we will turn to Mr. Fisher, who is President of the 
Patterson Lake Homeowners Association. Thanks for your 
leadership and thanks for coming back--sorry that you had to 
make two trips--but it is great to have you here.
    Mr. Fisher.

              STATEMENT OF TOM FISHER, PRESIDENT,
             PATTERSON LAKE HOMEOWNERS ASSOCIATION

    Mr. Fisher. Good afternoon. My name is Tom Fisher. I am 
President of the Patterson Homeowners Association. I am here 
today representing the 41 permit holders who have permanent 
homes along the shores of Patterson Lake near Dickinson in 
southwest North Dakota. We wish to be recorded in strong 
support of Senate bill S. 440.
    The Patterson Homeowners Association would also like to 
thank Senator John Hoeven for his sponsorship and support for 
this important legislation. I would also like to thank the 
fellow members of the Energy and Natural Resources Committee 
for the opportunity to speak to you today about the Senate bill 
S. 440.
    As a brief history, the Dickinson Dam was completed by the 
Bureau of Reclamation in May 1950 which impounds the Heart 
River. The dam, amongst the rolling hills and prairies, created 
the Edward Arthur Patterson Lake, which covers nearly 1,200 
surface acres and 22 miles of shoreline.
    The original purpose of the dam and lake was as a municipal 
water source for the City of Dickinson, with recreation and 
irrigation as secondary usages. In 1991, the City of Dickinson 
began getting their water from Lake Sakakawea through the 
Southwest Pipeline Project and in 1996, the Southwest Water 
Authority was established to take over the management of the 
Southwest Pipeline Project.
    Since that change in 1991, the dam and lake are no longer 
utilized for the primary original purpose of construction. 
Patterson Lake is now used primarily for recreation and adds a 
tremendous quality of life to the City of Dickinson and to the 
surrounding communities.
    Speaking of the quality of life, in the last 15 months I 
have gotten to know all of the homeowners on a very personal 
level. I have heard many stories of barbeques, holiday 
gatherings, graduations and wedding receptions that have taken 
place in our neighborhood. I've also had non-association 
members ask me on a daily basis whether or not we have come up 
with a solution. Those conversations usually end up with me 
hearing about a breathtaking sunset that they have witnessed on 
the lake. Many others have told me about stories of being on 
the lake and how wonderful it is to have a resource like that 
just only minutes from town.
    Patterson Lake and the surrounding area has always been a 
major outdoor recreation destination for the residents of 
Dickinson, Stark County and the region, so continuing public 
access to the lake is important to everyone in the area.
    In our many discussions and interactions with the elected 
members of the Dickinson Park Board and the employees, 
maintaining that public access has always been paramount to 
those discussions and everybody in the community looks forward 
to continuing the usage of the lake, parks, golf course and 
other activities currently available.
    Patterson Lake homeowners have been trying to purchase the 
lots around this lake for over 30 years. Over those years, the 
Patterson Homeowners Association has worked with and had many 
discussions with the local park board, city and county 
officials, along with the North Dakota Game and Fish Department 
and our local state legislators, Governor, as well as both the 
prior and current congressional delegation.
    During that time, each of these individuals has expressed 
support for our efforts. This bill is the culmination of those 
efforts and discussions. We have worked with and met with the 
Bureau of Reclamation, the Park Board Department and officials 
and city and county elected and appointed individuals to 
discuss how we can move forward in a positive manner. Those 
meetings have included the Executive Board of the homeowners 
association, the entire homeowners association membership, 
multiple meetings with staff of our congressional delegation 
and two meetings with Senator Hoeven himself.
    The Patterson Lake Homeowners Association takes very 
seriously the varied interests and concerns of all 
stakeholders, which is why it has been a priority to have 
transparent and constructive meetings to allow for full and 
open discussions.
    The homeowners take significant pride in not only the 
ownership of our homes, but the manner in which we maintain the 
land where our homes sit, as well as the other surrounding 
federal lands bordering our homes. We pay property taxes to 
Stark County and to the Dickinson School District for the 
assessed value of our homes, as well as a small usage tax for 
the land. Additionally, we pay an annual permit fee to the park 
board and these funds have been used to help maintain the 
public lands around the lake. If this bill is approved, we will 
pay additional further property taxes to the county and schools 
for the assessed value of the land, which will further benefit 
the community.
    With the passage of Senate bill S. 440, the homeowners will 
be given the option to buy the land under their permanent 
homes. For most of us, our home is our greatest investment and 
asset. This bill would allow financial lenders to use the land 
and all the improvements the homeowners have made over the 
years as securities. By doing so, this will open the 
opportunities so we can make improvements to utilize the equity 
for whatever purpose we deem necessary and appropriate. For 
example, lenders have now advised us that we can no longer take 
out home improvement loans for our homes or access the equity 
due to not owning the land underneath the structures. Passage 
of S. 440 will not only provide us the opportunity to make 
improvements to our homes, but it will also eliminate financial 
uncertainties.
    We are not asking for a giveaway as this bill will require 
that the land and the purchase price of the land to be 
established based on fair market value through a third-party 
appraiser in the same manner as the value for all other 
properties appraised.
    The Patterson Lake Homeowners Association members are very 
active in the community. Most have been on numerous volunteer 
committees and boards and helped with countless city and county 
projects. The members are tax paying, productive, hardworking 
people who are excellent stewards of the lake and land that we 
choose to enjoy as homeowners.
    We, as homeowners, support the Senate bill S. 440. With 
this bill's passage we too will have the chance to experience 
the American Dream of home ownership and security.
    Thank you for your time.
    [The prepared statement of Mr. Fisher follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Senator Hoeven. Thank you, Mr. Fisher.
    Now we will turn to Mr. Hamman, Chief Engineer and CEO of 
the Middle Rio Grande Conservancy District in New Mexico.

 STATEMENT OF MIKE A. HAMMAN, CHIEF EXECUTIVE OFFICER, MIDDLE 
                RIO GRANDE CONSERVANCY DISTRICT

    Mr. Hamman. Thank you, Mr. Chairman, Ranking Member King 
and members of the Subcommittee for the opportunity to testify 
on the New Mexico Drought Preparedness Act (the Act). I am Mike 
Hamman, the Chief Executive Officer of the Middle Rio Grande 
Conservancy District (the District) and have served in this 
capacity for two and a half years. I have over 32 years of 
public service in Western water resources management including 
18 years with the Bureau of Reclamation, culminating in five 
years as the Area Manager in the Albuquerque area office, 
working primarily on Rio Grande issues.
    This Committee received our detailed written testimony for 
the record supporting this legislation, so I will focus my 
testimony on the very positive developments that have occurred 
in the Middle Rio Grande since this Committee last heard our 
testimony in October 2015.
    I'm very pleased, Mr. Chairman, to inform the Subcommittee 
that along with our partners, the Bureau of Reclamation, the 
Bureau of Indian Affairs, the Fish and Wildlife Service and the 
State of New Mexico, we have successfully negotiated a new 
Biological Opinion (BO) for the Middle Rio Grande that moves us 
away from the highly prescriptive measures of the 2003 BO 
toward a performance-based strategy that will use sound science 
and adaptive management process.
    The four objectives of this 15-year, non-jeopardy, 
Biological Opinion are to: operate the reservoir system to 
create more spring spawn and recruitment flows for the 
endangered silvery minnow; acquire water for summer survival 
flows to help minimize river drying; create and maintain more 
in-river habitat that increases flood plains at lower flows; 
and construct fish passage structures at three district 
diversion dams. Each of these requirements is well supported 
and enhanced by this bill, with these proposed changes and 
authorities for federal partners in the basin.
    Section Five of the Act requires that additional authority 
be afforded to re-operate Cochiti Dam in order to provide 
needed flexibility to meet the first and most important 
objective toward species recovery, particularly during drought 
years. The District strongly supports this critical action 
necessary for long-term survival of the silvery minnow and to 
meet human needs during times of shortage. We urge that Cochiti 
Pueblo will be consulted with early on so that any impacts to 
their lands are addressed thoroughly.
    We also recommend that all six Middle Rio Grande Pueblos be 
consulted regarding this legislation.
    The District is the lead agency engaged in four WaterSMART 
Grants with Reclamation under the 50/50 cost share requirements 
for these programs. We are: developing a drought contingency 
plan with basin stakeholders; performing a pilot on-farm 
efficiency project to encourage more farmers to improve 
irrigation practices; investing $700,000 in cost share for a 
water salvage pumping station that will provide water to 
support river marine habitat and to also supplement irrigation 
during low flow periods, it will be completed by 2018; and we 
have also joined with Reclamation to lead an Upper Rio Grande 
Basin Study from the Colorado border to Elephant Butte Dam 
involving a broad group of basin stakeholders.
    This bill will enhance these types of projects. However, 
given that a Rio Grande Basin Study will be underway soon, we 
suggest that under Section Six, the National Academy of 
Sciences be asked to serve as an independent science panel to 
peer review basin study work in the Rio Grande Basin in lieu of 
conducting its own study as they are restricted from including 
Elephant Butte Reservoir operations that is critical for a 
comprehensive study.
    Reclamation is also partnering with the National Fish and 
Wildlife Foundation and the District to create a pilot Water 
Banking Program for willing lessors of pre-1907 water rights 
within the District. This would be consistent with Section 3 of 
the Act.
    The District fully supports reauthorizing the Secure Water 
Act, and we strongly support reauthorization of the Rio Grande 
Pueblos' Irrigation Infrastructure Improvement Act that will 
continue to provide resources to our Pueblo partners to improve 
inefficient irrigation systems as they receive water from the 
District works.
    In closing, Mr. Chairman and Committee members, the 
District believes that passage of this legislation will assist 
in providing additional tools for federal agencies to use in 
helping state, tribal and local partners prepare this region 
for extended drought.
    The evidence is clear that drought conditions will persist 
given that during the last 15 years we have seen above normal 
snowmelt runoff in only five of those years and having 
experienced an unprecedented five consecutive years of below to 
well-below normal runoff in the Rio Grande Basin.
    We thank Senator Udall and Committee member Heinrich for 
their work in introducing this bill and this Committee for this 
hearing on drought preparedness so critical to the future of 
New Mexico.
    I stand ready for any questions.
    [The prepared statement of Mr. Hamman follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Hoeven. Finally we will hear from Christopher Wynn, 
the Vice President of Northeast Operations for the Brookfield 
Renewable Group which has a significant portfolio in the State 
of Maine.

   STATEMENT OF CHRISTOPHER WYNN, VICE PRESIDENT, NORTHEAST 
                OPERATIONS, BROOKFIELD RENEWABLE

    Mr. Wynn. Mr. Chairman, Ranking Member King, members of the 
Subcommittee, good afternoon and thank you for the opportunity 
to appear today. My name is Todd Wynn, and I'm the Vice 
President of Northeast Operations at Brookfield Renewable. In 
that role, I oversee operations of all Brookfield's 
hydroelectric and wind facilities in Maine, New Hampshire and 
Massachusetts.
    Brookfield Renewable is one of the largest, independent 
hydropower producers in the United States. Our portfolio is 
comprised of 88 percent hydroelectric generation. We operate 
these resources with an embodying global commitment to safety, 
environmental responsibility and community engagement.
    In the United States, we own and operate nearly 140 
hydropower facilities and seven wind farms across 13 states. 
These facilities generate approximately 14 terawatt hours of 
clean, renewable and reliable energy, enough to supply one 
million homes and making us intimately familiar of the 
challenges of relicensing small and large hydropower facilities 
alike.
    Today, I'm here to support two bills proposed by Senator 
King that we believe will help support hydro owners and 
operators--the Small Dam Exemption Act and the Small Dam 
Information Act.
    Hydropower is a proven, long-life and reliable, renewable 
resource providing critical, baseload power and delivering a 
variety of important benefits to the electrical grid. As 
America's first indigenous, renewable energy source, it 
contributes valuable fuel diversity and security to our 
domestic energy portfolio. It is also highly flexible, able to 
quickly ramp up and down to support fluctuating grid demands. 
This flexibility is critical for liability and helps to 
accommodate the increasing penetration of intermittent 
generation such as wind and solar.
    While hydropower facilities appear to operate nearly self-
sufficiently, they're actually a capital-intensive resource 
requiring continuous monitoring and re-investment to ensure 
reliable, efficient and safe operation. This investment helps 
stimulate local economies and sustain nearly 517 Brookfield 
Renewable jobs nationally.
    In Senator King's home state, where we operate 39 small-
scale facilities, we invested nearly $16 million last year. By 
creating an opportunity to streamline the FERC permitting 
process for small hydropower assets, Senator King's Small Dam 
Exemption Act is an important initial step toward better 
acknowledging the value and importance of these resources.
    Although the FERC relicensing process is defined as five to 
six years, a hydropower relicensing sometimes takes eight to 
ten years to complete. Over 500 projects nationwide will begin 
their relicensing process between 2017 and 2030, representing 
about half of all hydropower projects licensed by the 
Commission. The vast majority of these projects are very small 
with a median install capacity of two and a half megawatts.
    The cost to relicense a project is not directly tied to a 
facility's energy output. A one megawatt project is forced to 
file the same licensing process as a 1,000 megawatt project. 
The cost of a single, hydro licensing process can vary 
considerably and can run to millions of dollars in certain 
cases. The challenge is especially acute with smaller dams and 
for smaller hydro operators. Small projects earn less revenue, 
making it more difficult for small projects to absorb or 
recover the costs associated with licensing and any protection 
mitigation enhancement measures. This is leading some small 
hydro operators to surrender licenses and/or decommission 
smaller projects.
    Providing FERC with the discretion to exempt certain small 
hydro projects from the relicensing process while still 
providing prudent and necessary environmental oversight is an 
important step toward streamlining the licensing process and 
recognizing the values that these resources provide.
    We applaud Senator King's leadership on relicensing for 
small scale hydro and also wish to speak briefly on the Small 
Dam Information Act. While not directly impacting the majority 
of our portfolio we understand this Act seeks to study how 
requiring FERC licensing of small, non-powered dams balances 
with the challenges and burdens of the licensing requirements.
    As we noted previously in our testimony, FERC licensure can 
impose significant economic challenges. We believe to 
understand the various costs and options available to license 
non-powered dams can only be helpful to policymakers and 
regulators who might consider future legislation on this topic.
    Thank you for the opportunity to testify today, and I 
welcome questions from the Committee.
    [The prepared statement of Mr. Wynn follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Hoeven. Thank you, Mr. Wynn.
    I would also add that we received written testimony from 
FERC on Senator King's two bills, S. 1029 and S. 1030.
    [The information referred to follows:] 
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Hoeven. At this point we will go to questions. I am 
going to start the questions. I do have to go preside on the 
Floor at 3:30, so I am going to try to get through. I might go 
a little bit over my time, so I will ask the indulgence of the 
Committee. Thank you.
    Senator Barrasso will be here to preside so that there will 
be plenty of time for all of you to ask any and all questions 
that you want to ask.
    Mr. Fisher, I am going to start with my questions for you. 
Public access to public lands is an important issue to all of 
us and certainly it is important to Secretary of Interior 
Zinke. We know that.
    You mentioned in your testimony the community's usage of 
the lake and other activities. Can you tell the Committee here 
today a little bit more about the public access the community 
currently enjoys at Patterson Lake and will continue to enjoy 
if this bill is enacted?
    Mr. Fisher. Currently there are three main public access 
areas around Patterson Lake. Two areas are on the north side 
which include picnic areas, two boat ramps and a public beach. 
On the south side of the lake there is a picnic area, a boat 
ramp and then also access to the water for fishing. Fishing on 
the lake is actually a year-round thing.
    The community also enjoys miles of natural and paved 
walking paths around the edges of Patterson Lake, and with 
those walking paths those are also used year-round.
    Senator Hoeven. Talk for a minute about the Dickinson Parks 
and Recreation Department and their continued commitment to 
public access and recreation.
    Mr. Fisher. Just from the meetings with the Dickinson Parks 
and Recreation Department, they have addressed, in their letter 
of support, their efforts to enhance the access for the public 
there while they also talk about what they have managed for the 
Bureau of Reclamation over the years and how they have enhanced 
the opportunities and support for the public accessibilities.
    Senator Hoeven. They have submitted that letter for the 
record, correct?
    Mr. Fisher. They have. Correct.
    Senator Hoeven. Which details their support.
    In your testimony you mentioned that the Patterson Lake 
Homeowners Association currently pays permit fees to the 
Dickinson Parks and Recreation to help maintain public lands 
around the lake. In addition to local property taxes, if this 
bill was to successfully pass and the homeowners are able to 
purchase their lots, they will no longer pay the permit fees to 
Dickinson Parks and Recreation. So you will be paying increased 
property tax fees as owners then of the property to support the 
county and the school, but you will not be paying the permit 
fees. I know you are not part of the Dickinson Parks and 
Recreation Department, but do you know what their plan is to 
cover the costs without revenue from the fees?
    Mr. Fisher. In the discussions I've had with the Park 
Director and the Board, they've planned to incorporate the 
operation and maintenance of Patterson Lake Recreation Area 
with their regular operating funds.
    Senator Hoeven. Okay, so they have that covered?
    Mr. Fisher. They've been planning this for years.
    Senator Hoeven. Okay, is there anything else that you want 
to elaborate on as far as the history or anything else 
regarding the homeowners and the lots that are on Patterson 
Lake in their development? Any other thoughts?
    Mr. Fisher. Yeah. The original cabins and structures, they 
were originally built in the 1950s and 1960s and they were all 
constructed being seasonal use structures. Over the years, as 
the homeowners have lived there and the homes have changed 
hands, you know, people have added on to the actual cabin lots 
and sites by planting trees, establishing lawns. They've also 
helped maintain the shorelines to help slow the causes of 
erosion.
    And over those years, as things have happened, we had a 
chance many years ago to actually choose to become full-time, 
permanent residents which, unanimously, everybody chose to be 
full-time, permanent residents. And with that choice, over the 
years, those structures have grown into being beautiful, 
beautiful homes which you've seen when you were out there.
    Senator Hoeven. I have been there. I have seen the homes, 
they are very nice homes. An incredible amount of improvements 
around the lake from riprap, trees, yards, like you are 
saying--really a beautiful place. And these are full-time, 
permanent residences, no question.
    Some questions for Secretary Cameron. Secretary Cameron, 
you mentioned in your testimony the Bureau of Reclamation 
acquired the lands needed to construct the Dickinson dam and 
reservoir and fulfill the authorized project purposes. My 
question, is the Bureau property under consideration in this 
bill necessary to fulfill the project purposes of the Dickinson 
unit?
    Mr. Cameron. Senator, we don't see any problem in terms of 
impairing the future operations of the Reclamation project or 
this legislation to move forward. We've got a very good, long-
standing relationship with local residents, with Dickinson 
Parks and Recreation, and we don't see any impediment to our 
operations.
    Senator Hoeven. Secretary, I want to thank you for being 
here today. Thank you for your testimony on S. 440. I 
appreciate your feedback on the bill and will continue to work 
with you on your suggestions.
    I want to note that at the introduction of S. 440 we were 
contacted by the North Dakota Game and Fish Department 
regarding the land that it leases from the Bureau. We have 
taken that feedback into consideration and have worked with 
North Dakota Game and Fish to produce language that would also 
allow them to be conveyed the land that they currently lease. 
So we will work with the full Energy and Natural Resources 
Committee to include the updated language.
    I also am submitting a letter from the North Dakota Game 
and Fish Department in support of this legislation, S. 440. I 
also would like to make note of letters of support for S. 440 
from the Dickinson Parks and Recreation, the City of Dickinson, 
and the Stark County Board of Commissioners and want to make 
them part of the record as well.
    [The information referred to follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Senator Hoeven. Does the amended language I mentioned which 
would provide conveyance of land permitted to cabin owners and 
land managed by the Dickinson Parks and Recreation to extend to 
the North Dakota Game and Fish Department alleviate your 
concerns regarding, ``fractionated ownership with continued 
Reclamation oversight responsibilities and costs,'' that you 
referenced in your testimony regarding the North Dakota Game 
and Fish leased land?
    Mr. Cameron. Yes, Mr. Chairman, that would be very helpful 
and we appreciate your doing that.
    Senator Hoeven. Okay. I would also note that the concern 
raised in your testimony regarding liability is also addressed 
in the amended language, and I welcome any feedback that you 
may have on it once you and whoever at Interior needs to take a 
look at it does so.
    Again, you have been absolutely fantastic to work with in 
this process. We will continue to make sure that we address 
anything that you bring forward to us, but I do want to thank 
you very much.
    Mr. Cameron. Thank you very much, Mr. Chairman. We 
appreciate your response on this and your willingness to move 
ahead here to benefit the community and the homeowners.
    Senator Hoeven. Also, Mr. Fisher, thank you for being here 
and for your good work.
    I do have other questions from Chairman Flake, but I am 
going to turn those over to Senator Barrasso as well as the 
gavel at this point and turn to Senator King for his questions.
    Again, thanks to all of you.
    Senator King. Mr. Chairman, I understand that Senator 
Heinrich has a commitment in a short time, so I am going to 
yield my first round of questions to him.
    Senator Heinrich.
    Senator Heinrich. Thank you, Senator King. I will point out 
that the Acting Chairman has said how beautiful this lake is, 
but he said nothing about the fishing and I find that very much 
out of character, but we will solve that later.
    I want to turn back to S. 1012 and really start by thanking 
Senator Udall for the incredible work that he and his staff 
have done on this legislation over time. It has been an 
absolute pleasure to work with him on this legislation.
    As my first question, I was going to ask Mr. Hamman to walk 
through some of the things the District has done to deal with 
the drought conditions that we have seen for a number of years 
now. I think you have effectively done that, but I want to take 
this as an opportunity to commend you and commend your board 
members.
    We have seen more proactive measures taken in the last 
couple of years than in many, many years before. It really is, 
I think, a testament to your board members and your leadership 
just how active you have been on this front and how much 
progress is being made. So I want to say thank you.
    Mr. Hamman, how might we facilitate water leasing as we are 
looking at setting up a pilot project? How do we make sure we 
do that in a way that is beneficial for water rights holders as 
well as for the natural environment?
    Mr. Hamman. Thank you, Mr. Chairman, Senator Heinrich.
    The process that I think will work, at least in the initial 
stages of getting this program up and running, would be to work 
closely with the state engineer's office and Reclamation and 
the National Fish and Wildlife Foundation to do an inventory to 
fully determine the extent of the pre-1907 water rights that 
are in the basin.
    And then have an outreach effort for the owners of that, of 
those rights, to encourage the opportunity for them to, in lieu 
of outright transfer and sale and severance of those rights 
from the land, to actually have another alternative for them to 
achieve some kind of an income stream to work directly with the 
District through a water bank that we would likely manage and 
would relish the opportunity to manage, quite frankly, in 
addition to the water bank we currently manage, to afford those 
folks that opportunity.
    And then we would work with various NGOs and Reclamation 
and others to determine how an instream flow process might work 
and how you convert an irrigation right that doesn't have 
storage rights to a storage right that can be used in a way 
that can protect the species of interest during the summer 
months when we have the most trouble----
    Senator Heinrich. Right.
    Mr. Hamman. ----keeping the river from drying out below 
Isleta Diversion Dam. So that would be the focus that we'd work 
on there.
    Senator Heinrich. Excellent.
    Before my time is out, I want to switch over to Mr. Cameron 
real quickly. Can you talk a little bit about how the Bureau 
has used water leasing in other basins to help ameliorate some 
of the drought stresses that some of our basins are under?
    Mr. Cameron. Senator Heinrich, I'm probably best advised to 
give you a more detailed response for the record.
    Senator Heinrich. Okay.
    Mr. Cameron. I will say more generally, however, that we 
strongly support the notion of water leasing--any way that one 
could use markets to move water around consistent with state 
water law is advantageous to everyone involved.
    So we strongly support the notion, and I can give you, 
perhaps, a detailed example for the record.
    Senator Heinrich. That would be just fine.
    Real quick, my last question for you, Mr. Cameron. Would 
greater flexibility in authorization language for dam and 
reservoir management help the Bureau better respond to 
droughts?
    Mr. Cameron. Yes, I think it would, Senator. And we welcome 
that, that would be helpful. Frankly, a drought situation needs 
as much flexibility as you can get your hands on.
    Senator Heinrich. Yes, I hear you.
    Thank you very much. Thanks to all of you for your 
testimony and for being here today.
    Senator Barrasso [presiding]. Thank you, Senator Heinrich.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    I want to start off by welcoming back Mayor Jeff Sell. As 
the Mayor of Harlowton, right there in Wheatland County, you 
know first-hand the challenges of lacking access to clean 
water. Unfortunately, during your last visit here to speak on 
behalf of your community, you were caught up in all that is 
wrong with Washington, DC. You flew all the way out here to 
share your story and be the voice for rural Montana and for 
rural America, and you were not allowed to speak.
    I want to thank you for returning here to share your 
thoughts. You had to bear additional expense and share your 
insights on this critical issue that affects thousands of 
Montanans.
    Water is a basic need of life. There are rural communities 
in Montana that lack access to the basics of clean and reliable 
drinking water. In fact, if you look at this--I have a picture 
here I am going to show in a minute--you are going to see what 
the quality of water is like in one of the affected communities 
in Montana. I will have Steven put that up.
    [The information referred to follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    This is a picture from Roundup, and you can see when you 
open up a hydrant what we got out of there in Roundup, Montana. 
In fact, I have water samples here that were taken from kitchen 
sinks in Circle, Montana, just East of Harlowton and a little 
bit, well, pretty much due East. Here is one from the Hans 
Family, taken out of their faucet. Here is one from the Good 
Family. Here is one from the Arneson Family. I have more, but I 
told my staff member, just give me three. I could show you 
many, many more samples just like it. These samples were taken 
from the kitchen sinks in Circle, Montana. We are not talking 
about a Third World country, we are talking about the United 
States of America. We are talking about Montana.
    In light of that, I have introduced Senate bill 685, the 
Clean Water for Rural Communities Act, with my colleague from 
Montana, Senator Tester. This bill would authorize two Bureau 
of Reclamation rural water projects critical to Montana, the 
Musselshell-Judith Rural Water System and the Dry-Redwater 
Regional Water Authority System. Authorizing these two projects 
would be an important step in providing clean and safe drinking 
water to nearly 36,000 Montanans and North Dakotans.
    Mayor Sell, Harlowton has serious issues with the wells 
used to provide your town with water. Unfortunately, Harlowton 
is just one example of numerous communities in Central and 
Eastern Montana that are facing severe drinking water 
challenges. The Musselshell-Judith Rural Water System would 
provide a clean and reliable water supply to your area, and I 
am impressed by the fact it has a demonstrated benefit-to-cost 
ratio of 1.28 to 1.
    So my question, Mayor Sell, is what benefits can we expect 
to see if we were to approve this project?
    Mr. Sell. Mr. Chairman, Senator Daines, we realize that 
authorization of this project does not get us any funding from 
the Federal Government at this time. But to use Mr. Cameron's 
words, it would allow us to get in the queue at the Bureau of 
Reclamation for future funding, if that did become available.
    Reclamation entered into numerous agreements with the CMRWA 
over the last 12 years to put this water system together. 
Reclamation has committed time and money, roughly $700,000 to 
this project already.
    Basically, with the short construction season that we have 
in the State of Montana, if this project were authorized we 
would be able to access state and local funding to get this 
project started and then if our current administration does 
provide infrastructure funding, like has been talked about 
numerous times over the last few months, we would have a 
project that would be completely shovel ready and we could get 
this project built in a very short amount of time.
    Senator Daines. I think that is something that folks lose 
sight of when you are from a northern state. We sometimes say 
we have nine months of winter and three months of bad sledding.
    Mr. Sell. Correct.
    Senator Daines. So, to restate, what could be accomplished 
with authorization, even if the federal dollars were not 
appropriated?
    Mr. Sell. We would be able to get, probably, design. We 
would be able to get land access rights and the design of the 
first phase of the project completed and possibly even get 
water to the first two communities in the first phase of the 
project which are Judith Gap and Harlowton.
    Senator Daines. Alright. Thank you.
    I have some more questions, Chairman, but I am out of time. 
Thanks.
    Senator Barrasso. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Mr. Cameron, S. 677 looks like a very sensible bill in 
terms of it providing a coordination of a one-stop shop. Is 
this in any way duplicative of processes that you already have, 
or do you think this would be useful authority?
    Mr. Cameron. Senator King, I do think it would be helpful. 
One of the challenges that we have as a Federal Government, and 
frankly state governments as well, in environmental reviews is 
that different agencies run their own processes along their own 
timelines, very often difficult to coordinate. They, way too 
often as I suspect you learned in your experience with 
hydropower in New England, are done sequentially as opposed to 
simultaneously.
    So we think this legislation would help control the expense 
and the duration of environmental reviews. And that, I think, 
would benefit the environment and would also certainly benefit 
the project proponents.
    Senator King. I completely agree and we incorporated 
changes in our own law in Maine when I was there to do just 
this. One of the problems with the sequential is you can need 
27 permits and if you get them all except 26, you are out of 
luck and you have made an enormous investment.
    I think anything we can do in the way of one-stop shopping, 
coordination in one lead agency, would be beneficial. I 
complement the Chairman on this bill. I think it is something 
we are going to have to look carefully at and be sure the 
language works, but the concept, I think, makes a lot of sense.
    Mr. Cameron. If I could elaborate, Senator. Sometimes 
agency number 17 wants a change that's inconsistent with agency 
number 5 and you find yourself in an endless do loop which 
makes matters even worse.
    Senator King. And that is when we get into these 10-, 12- 
and 20-year permitting processes which really do not serve any 
purpose, in my view.
    Mr. Gabriel, do you have any objection to S. 930? You 
talked about the changes you have made in terms of transparency 
and clarity of your work. Do you welcome this bill or do you 
view it as unnecessary?
    Mr. Gabriel. Well, we believe that this bill is in line 
with what we are looking at in terms of transparency. The only 
concern that I would express is we want to make sure that 
whatever is in the bill is actually answering the questions 
that the customers have because we can be chasing lots of 
information and then still not have folks satisfied.
    So we've been working carefully with Senator Flake's staff 
and we'll continue to do so. I'm all for transparency. 
Everything we've been doing in the last four, four and a half 
years, is moving down that path. So we have no issues with the 
bill itself. I just want to make sure that the details are well 
spelled out so we're answering the right questions.
    Senator King. Thank you.
    Mr. Wynn, you mentioned you have both wind and hydro. One 
of my concepts for many years is the use of hydro as the 
battery for wind in terms of intermittency. Are your projects 
adjacent in a way that you could do that or is that a 
conceivable concept at some time in the future?
    Mr. Wynn. I believe it is, Senator. You could combine the 
hydro and the wind so when the wind isn't blowing you could, 
kind of, offset or complement with hydro generation. I think 
that's----
    Senator King. As I recall, most of your hydro is run-of-
the-river though, isn't it, or do you have storage?
    Mr. Wynn. We do have several storage facilities, especially 
in the headwaters of the Penobscot, Kennebec and Androscoggin 
Rivers.
    Senator King. So that would definitely be a place where you 
could pair that with a wind project?
    Mr. Wynn. Absolutely.
    Senator King. Where you have the storage.
    Talk to me about the costs of relicensing a small project. 
I mean, it was striking what you said: that the relicensing of 
a one megawatt dam is the same as for a 1,000-megawatt dam. 
That really strikes me as very, very difficult. Tell me about 
that situation.
    Mr. Wynn. The cost for a small facility for relicensing can 
be a very big burden. Small facilities earn less revenues, 
generate less cash and therefore, the owner or licensee of a 
small facility would have a difficult decision to make if 
you're burdened or facing significant relicensing costs. The 
amount of time to recover that would just be a long period of 
time. And then you're making the tough decision if you should 
surrender or decommission a facility.
    Senator King. And isn't it true that we are in danger of 
losing significant hydropower by people that are just saying, 
``I can't afford the capital investment involved in a 
relicensing,'' and we lose the power?
    Mr. Wynn. I think that's right. I think that some of the 
small facilities face that burden.
    Senator King. The second bill that I have in is essentially 
a study of the relicensing of storage dams, of non-powered 
development. Do you see that as useful, for generating useful 
information?
    Mr. Wynn. I do. I think--we own and operate several storage 
dams in the State of Maine. I think they provide great benefit, 
and just having a better understanding of them would be a good 
thing to know.
    Senator King. But again, if a storage dam doesn't produce 
any revenue, it makes the challenge of justifying the 
relicensing even greater.
    Mr. Wynn. Yes, absolutely. That's correct.
    Senator King. Well, I have to say one of the reasons I 
submitted this bill is I think this is a problem generally. We 
legislate around here for everybody. For example, financial 
regulation that is designed for big banks ends up hitting 
credit unions and small community banks with an equal 
regulatory burden that is way disproportionate to what those 
institutions are doing. So this is exactly the same problem. We 
are aiming it at this small hydro relicensing.
    I appreciate your testimony, and I appreciate your 
management of those great resources in Maine. As you said, I 
think it is one of the largest privately-owned hydro systems in 
the country, and very much a part of our history. I want to 
thank you for coming and testifying before us today.
    Mr. Wynn. Thank you, Senator.
    Senator King. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator King.
    Senator Daines, you had a last question?
    Senator Daines. Yes, thank you, Mr. Chairman.
    I have one question that I wanted to ask, it is for Mr. 
Cameron. Congress passed the Rural Water Supply Act to 
establish and carry out a rural water supply program in Western 
states. After 12 years and over $3 million spent by the Federal 
Government, the State of Montana and local communities, the 
Musselshell-Judith Rural Water System was found to be feasible 
and to have met the broad criteria of the program. Yet the 
Bureau of Reclamation will still not recommend this project for 
authorization. Mr. Cameron, what good does a feasibility 
approval do if the project will not be authorized?
    Mr. Cameron. Senator, I completely am sympathetic with the 
basis of your question there.
    Our--we certainly recognize the fact that there's a 
positive benefit cost ratio with this project. And were there, 
if an amount of funds were available, I think, yeah, we'd align 
it to fund it.
    Our concern really is reflecting the fact that Congress has 
authorized a number of projects already, well in excess of $1 
billion. Roughly, $50 million is being appropriated every year 
and we're concerned, frankly, about raising expectations which 
we might not be able to fulfill through the appropriations 
process.
    But I certainly agree that this is a good project. I 
certainly agree that no one should be asked to drink brown 
water, you know, such as you've exhibited here in the 
photographs. And we're very sympathetic with the plight that 
these communities in Montana are facing. Secretary Zinke has 
underscored that for us on more than one occasion, I might add.
    Senator Daines. Yes. My concern is that we are stewards of 
taxpayer dollars to make sure the resources that are devoted to 
the development of these projects, they are not just wasted. 
You go through all these feasibility studies and so forth and 
then no action is taken.
    Mr. Cameron. I would agree with you. I think to some extent 
this is consistent with some of the subject matter of S. 677 in 
that there's an excessively prolonged evaluation process. And I 
think, perhaps, having a better understanding up front what the 
project proponents, about the sort of obstacles that they're 
facing, and trying to expedite the reviews would be beneficial 
for everyone involved.
    What's happened with these two projects in Montana, 
unfortunately, is history. You know, at this point we can't 
wind the clock back 10 or 15 years and start over.
    Senator Daines. Well, I am glad you are there now and I am 
sure as we go forward here, we are looking forward to making 
progress.
    Thank you, Mr. Cameron.
    Mr. Cameron. Yes, sir.
    Senator Barrasso. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Mr. Wynn, this will be for you. You met with the West 
Virginia Alloy Manufacturing Company on June 9th.
    Mr. Wynn. The company did, Senator. I'm responsible for 
operations in New England, but other members of the company 
did.
    Senator Manchin. Oh, okay.
    I was kind of happy that we were tied together with New 
England and Maine.
    Contrary to what some people believe, West Virginia is not 
just all about coal. A lot of it is about coal, but we have an 
``all-in'' energy policy.
    The meeting was about the release on the flow levels at the 
Hawk's Nest hydropower facility in New River in Fayette County. 
The American Whitewater Association is proposing increased 
releases and flow from the facility which would increase 
rafting access for about one and a half miles. If that proposal 
is successful it would impact the level of electricity produced 
by the dam. Therefore, the West Virginia Alloy Manufacturing 
Company could face increased costs of at least a half a million 
dollars a year because they would need to purchase power from 
American Electric Power (AEP) at a much, much higher cost.
    Now the following questions will give you an opportunity to 
address these concerns we have and I am sure you are familiar 
with them on this project. Brookfield Renewable owns and 
operates at Hawk's Nest and Glen Ferris facilities.
    Mr. Wynn. That's right.
    Senator Manchin. Correct. And that is on New River.
    It is my understanding that they are currently working 
through FERC relicensing, which we know the challenges we have 
there, for several licenses for those two projects which 
provide clean, affordable power to the community. I think both 
projects are how many megawatts? One? Less than ten?
    Mr. Wynn. I don't know, sir, off the top of my head.
    Senator Manchin. Oh, okay. They are very small.
    I recently met with West Virginia Alloy Manufacturing 
Company which employs 240 people and has an 80-year history 
producing high-quality silicon for the chemical, metal and 
solar industry which is very little of that produced in this 
country right now.
    The company's production process is very energy intensive. 
Potential loss of a portion of that supply is concerning to 
these folks. The reason it is concerning is they have, with the 
240 employees, about $1.1 million in taxes. They are talking 
about a release that would cost them half a million dollars.
    We have a lot of rivers to raft on, and I am all for the 
rafting industry and all for the recreational industry, but 
there comes the time when you put a pencil to it and a chance 
of losing 240 jobs and taxes of $1.1 million. Does it make 
sense? I mean, they are going through this process and there is 
a chance they might not be relicensed.
    Have you all done economic impacts? Are you showing the 
economic impacts?
    Mr. Wynn. I apologize, I'm not very familiar with that 
relicensing. I know that, generically speaking, when we go 
through a relicensing process we work with various large groups 
of stakeholders. In this case, the facility you're speaking of, 
the whitewater rafters, other groups, recreation groups, 
environmental groups, et cetera.
    So, I apologize for I won't be able to speak to the details 
of that facility. But generally speaking, we work very hard to 
work with all groups, economic impacts, recreation, 
environmental.
    Senator Manchin. No, but I am saying, I do not know what 
the highest priority is from FERC. We are asking for a 
relicensing here to continue to operate as it has operated for 
over 80 years.
    Mr. Wynn. Correct, sir.
    Senator Manchin. There has not been any rafting in that one 
and a half miles for 80 years. We have hundreds of miles of 
rafting available, but I have 240 jobs at stake for that one 
and a half miles, that is all I am asking.
    There has got to be some common sense somewhere, maybe Mr. 
Cameron, do you have any?
    I meant, not common sense, I meant----
    [Laughter.]
    Senator Barrasso. Let the record reflect the question has 
been clarified.
    Mr. Cameron. On more than one occasion, Senator, I've been 
accused of not having any common sense.
    Senator Manchin. Well, we found out it is not real common 
here in Washington, so do not be surprised.
    Mr. Cameron. Yes, sir. I was actually sitting here 
listening and I was saying to myself, the Senator has got a 
great point. This doesn't make a lot of sense.
    Senator Manchin. You know, I really agree. Senator King's 
bill, S. 1029, it is a great bill, a great piece of legislation 
and I do not know why--do you know where we are on that 
Senator, if you can bring me up to speed?
    Senator King. The good news is it is co-sponsored by the 
Chairman of the Subcommittee. That is always a good sign.
    Senator Manchin. That should make it fly.
    Senator King. I hope.
    Senator Manchin. Anyway, I think some of these 
certificates, recertification--and they take into consideration 
the size, the proportion of what we are asking for and the 
amount of cost--it is just wearing people out, it just wears 
them out.
    We have an ``all-in'' energy policy in West Virginia. We 
want all the hydro we can get. We want all the wind and solar. 
We have the coal. We have been blessed with coal and natural 
gas. We have a little bit of everything, and we want to use 
everything to the best of our ability, but sometimes our own 
government gets in our way and makes it very hard for us to do 
what we need to do.
    The cost of electricity in West Virginia has gone up 
because 90 percent of our power was coming from coal and the 
overreach of regulation from the Obama Administration drove the 
price through the sky and never cleaned up one thing. We have 
already taken on all the new regulations but the cost now has 
doubled in West Virginia, a 50 percent increase.
    This little project is so important for the economics for 
it to work there. If it does not, it will not work. So I am 
preaching to the choir, I think. Okay, thank you.
    Senator Barrasso. Thank you, Senator Manchin.
    Well, I am pleased to be here at this first Water and Power 
Subcommittee hearing of this Congress. I am glad all of the 
witnesses have made it back today. And we all agree good, clean 
water with strong, reliable infrastructure is essential for 
communities all across America.
    Since the beginning of this year, the Full Committee, 
alone, has held more than five hearings focused on 
infrastructure. We have heard from experts across the country 
in a variety of fields from electric utilities, our national 
labs and water conservation districts. The common theme in 
recommendation we received is that the current federal 
permitting process is broken and needs improvement.
    That is why we are here today to discuss a number of bills, 
one of which is S. 677, the Water Supply Permitting 
Coordination Act. It is also known as the ``one-stop shop.'' 
This bill is going to streamline the current multi-agency 
permitting process which often draws out and delays the 
construction of new surface water storage by creating this one-
stop shop permitting process at the Bureau of Reclamation.
    Mr. Cameron, I want to thank you for your testimony on this 
bill. I appreciate you taking the time to work with my staff to 
discuss and get a better, fuller understanding of the bill. The 
bill seeks to clarify what is currently a timely and confusing 
permitting process for many.
    I noted the comments and the suggestions in your written 
testimony that we can use to strengthen the bill. Would you be 
willing to continue to work to address some of those points in 
your written testimony?
    Mr. Cameron. Absolutely, Senator Barrasso. We'd be 
delighted to do that.
    Senator Barrasso. Great, I very much appreciate it. We 
would be happy for you to work with my staff helping iron out 
some of the details.
    Mr. Davis, I want to thank you for your support of this 
bill, S. 677. There is certainly a need for additional water 
infrastructure across the West. As the general manager, as you 
are, of the Yuma County Water Users' Association, you work 
closely with the Bureau of Reclamation and it is the agency in 
power to coordinate new projects under the bill. Will you 
please describe some of your experiences with the Bureau of 
Reclamation and why you think they are the appropriate lead 
agency for this type of effort?
    Mr. Davis. Well, the era of dam building was thought to be 
over a number of years ago, Senator Barrasso, but recent 
drought has proven in the West that new storage infrastructure 
is going to have to be built to meet the ever-increasing 
demands of water in the West. And the Bureau was the key 
entity, the key agency all those past years to developing the 
West. That's why the Reclamation Act was formed, passed in 
1902, reclaimed the West and then the first thing necessary was 
water supply and building dams.
    I think it's recognized, from California to Oklahoma, that 
to survive long-term droughts we're going to need more storage 
because of the population growth in the West. It's natural that 
the Bureau of Reclamation is the agency to go to for that 
because traditionally they're the experienced agency in being 
able to do this.
    The challenge for them is being able to regulate and manage 
and wrangle these other federal agencies that are, sort of, 
Johnny-come-lately to the process of building dams and they 
have other interests other than just building dams to impound 
water for public use.
    And so, the Bureau is the obvious agency to be in charge of 
this process, to set timelines and controls on the other 
agencies to get the permitting process.
    I think that if this is implemented it's not going to have 
any negative impact on the NEPA process and the other federal 
laws that are required to build this infrastructure. It's, like 
Mr. Cameron said, it's a time factor that it allows the Bureau 
to put these folks and these other agencies in shape in a 
timely manner to get their processes done.
    Senator Barrasso. In your answer you used the word 
timelines, time and timely. Could you just talk a little bit 
about why you think the timeframes set forth in this bill are 
important?
    Mr. Davis. I think the timeframes are important just 
because of the cost that the time, extended timelines, it 
finally--those entities that are trying to get these structures 
constructed either run out of money, run out of time, run out 
of interest, run out of, you know, it's finally--the stalling 
process can have an effect of completely stopping a project 
from ever getting built. And so, the timeline is important.
    The other important thing about this bill, it allows the 
states to be involved. These projects have been and often 
involve, not only federal land, but state land and private 
land, and the states are often the ones that are stuck with the 
later management of some of these areas and it allows the 
states to help speed up the time process maybe by pumping some 
money into the process and maybe also putting in some timely 
information as far as data and scientific studies. So it allows 
the states to be a partner there and be involved which is, I 
think, absolutely necessary to get one of these projects done 
in the future.
    Senator Barrasso. Yes. I would also like to ask a couple of 
questions on behalf of Senator Flake who, as you know, has been 
preoccupied with the tragic events that took place earlier 
today.
    To you, Mr. Davis, this is a question from Senator Flake 
about the Western Area Power Administration customers who are 
interested in providing input into the capital investment 
projects. But it doesn't sound like there is a similar input in 
the operations and maintenance budget. Would you please run 
through some of the customer concerns and frustrations with the 
lack of transparency on headquarters' O&M budget?
    Mr. Davis. Yes, you know, the customers have always had 
pretty good input, at least some veto power into the capital 
projects, and we review those annually on a 10-year basis.
    It seems that our cost increases and the cost increases to 
my WAPA transmission costs have been about six percent a year 
for the last five years. And it seems to be most of that is in 
the operations and maintenance side of the equation which we 
have very little input into.
    I like the idea of transparency, but I like even more the 
idea of customer involvement. And that's one thing that we're 
working out in the Desert Southwest region of Western. We have 
a very customer-oriented manager there and he's been very open. 
He's been supportive of Mr. Gabriel to be very open, to the 
customers involving themselves in the process, not only of 
helping select capital projects to be put into the 10-year 
queue, but also to looking at staffing needs and other type O&M 
costs that are ongoing.
    We want to be careful with this transparency legislation, 
that it is meaningful but it doesn't increase cost to the point 
that it's not economic to do so.
    So we want transparency, but we also want to be actually 
involved in, somehow, decision-making in the process. And this 
technical, Customer Technical Committee we've put together 
working with the Desert Southwest Office, I think, is going to 
get to the bottom of this. I think it's going to be a good 
example or a good showcase for other regions to follow to get 
more customer involvement to help control rates and yet do the 
necessary maintenance and operation that needs to be done. 
We're not trying to let our systems run down. We want them to 
be maintained, state-of-the-art, but we want the money to be 
spent efficiently.
    Senator Barrasso. Well I appreciate all of you here. I am 
going to submit a couple additional questions from Senator 
Flake for the record, and I am going to have one for you, Mr. 
Cameron, that I will also submit for the record. There are a 
couple reservoir projects in Wyoming that are well behind 
schedule due to lengthy federal approval processes. On May 2nd 
I sent a letter to the Acting Director of the Bureau of Land 
Management asking about the status. We have not received a 
response yet. I am hoping that you can help make sure we get 
that response in a more timely manner, and we will submit that 
in writing.
    Mr. Cameron. Yes, sir, I'll follow up when I get back to 
the Department as well.
    Senator Barrasso. Thank you very much.
    Well, thank you all for being here today. This is a great 
start for the work of this Subcommittee that we are going to do 
during this Congress.
    For the information of other members, questions may be 
submitted for the record before the close of business on 
Thursday. The record will remain open for two weeks. I hope you 
will be able to get your questions submitted to us in a quick 
manner. We ask the witnesses to respond promptly when you do.
    I thank all of the Subcommittee members who are here as 
well as those of you who were able to appear to testify. We 
apologize for the inconvenience it caused you earlier, and 
thank you all very much for being with us today.
    The hearing is adjourned.
    [Whereupon, at 3:58 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------     
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              





</pre></body></html>
